SL
I

C@OCKLE

Lega 1B riefs E-Mail Address:
& contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214 Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-1298

ROGERS COUNTY BOARD OF TAX ROLL
CORRECTIONS, a political subdivision; CATHY
PINKERTON BAKER, Rogers County Treasurer, in
her official capacity; and SCOTT MARSH, Rogers
County Assessor, in his official capacity,
Petitioners,

v.
VIDEO GAMING TECHNOLOGIES, INC.,
Respondent.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 20th day of July, 2020, send out
from Omaha, NE 2 package(s) containing * copies of the BRIEF IN OPPOSITION in the above entitled case. All parties
required to be served have been served by third-party commercial carrier for delivery within 3 calendar days. Packages were
plainly addressed to the following:

SEE ATTACHED

To be filed for:
KURT M. RUPERT KEVIN B. RATLIFF
Counsel of Record RATLIFF LAW FIRM PLLC
HARTZOG CONGER CASON 1403 Classen Drive
201 Robert S. Kerr Avenue, Suite 1600 Oklahoma City, OK 73106
Oklahoma City, OK 73102 (405) 228-2017
(405) 235-7000 kratliff@rlfoke.com

krupert@hartzoglaw.com

Subscribed and sworn to before me this 20th day of July, 2020. ,
Iam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
f RENEE J. GOSS Qudaw &. Gh

My Comm. Exp. September 5, 2023

 

 

Notary Public Affiant
Service List

Matthew B. Free (3 copies)
Counsel of Record for Petitioners

Thomas A. Le Blanc

BEST & SHARP

One West Third Street, Suite 900

Tulsa, OK 74103

(918) 582-1234

mfree@bestsharp.com

tleblanc@bestsharp.com

Matthew Ballard (1 courtesy copy)

Todd Wagner

Rogers County District Attorney’s Office
200 S. Lynn Riggs Blvd.

Claremore, OK 74017

(918) 923-4960
matt.ballard@dac.state.ok.us
todd.wagner@dac.state.ok.us

Counsel for Petitioners Rogers County
Board of Tax Roll Corrections, a political
Subdivision; Cathy Pinkerton Baker, Rogers
County Treasurer, in her official capacity; and
Scott Marsh, Rogers County Assessor, in his
official capacity
